Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Medicare Maintenance Payments for
    Capped Rental Equipment




                    JANET REHNQUIST
                    INSPECTOR GENERAL

                        JUNE 2002
                      OEI-03-00-00410
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                           EXECUTIVE SUMMARY


PURPOSE

         To determine the cost-effectiveness of Medicare maintenance payments for capped rental
         equipment.


BACKGROUND

         Medicare Part B pays for certain pieces of durable medical equipment such as hospital beds,
         nebulizers, and wheelchairs under the capped rental category. Payments for capped rental
         equipment are made monthly and cannot exceed 15 months of rental. After the rental period
         has ended, Medicare will pay for either the continuing maintenance or repair of these items. In
         2000, Medicare paid approximately $111 million for maintenance and $19 million for repairs of
         capped rental equipment. Medicare beneficiaries were responsible for 20 percent of these
         payments in the form of coinsurance.

         Once a Medicare beneficiary has been renting the equipment for 10 consecutive months, the
         supplier must give the beneficiary the option of purchasing the equipment. If a beneficiary
         chooses to continue renting the equipment, Medicare will pay for an additional 5 months of
         rental. Suppliers may then bill for maintenance and servicing of the equipment beginning 6
         months after the rental period has ended and every 6 months thereafter. Maintenance billed in
         one month covers any servicing performed for 6 months following the service date. Suppliers
         are not required to perform maintenance in order to receive the semi-annual maintenance
         payment. If the beneficiary chooses to purchase the equipment, Medicare will pay for 13
         months of rental. After the rental period has ended, Medicare will pay for repairs on purchased
         equipment when service is performed.

         We primarily focused on two sources of information for this report: (1) a 5-year review (1996
         to 2000) of maintenance and repair payments for capped rental equipment that beneficiaries
         decided to rent or purchase in 1996 and (2) a survey of suppliers who received payment from
         Medicare for the maintenance and servicing of capped rental equipment in June 2000.

FINDINGS

Medicare paid substantially more for maintenance than repairs over a 5-year period
for the 31 equipment codes in our review

         We tracked, over a 5-year period (1996 to 2000), the maintenance and repair payments for
         3,553 pieces of equipment representing 31 equipment codes that beneficiaries decided to rent or
         purchase in 1996. We found that, on average, Medicare paid substantially more for
         maintenance on rented equipment than repairs on purchased equipment over the 5 years.


Maintenance Payments for Capped Rental Equipment    i                                   OEI-03-00-00410
         For half of the 31 equipment codes, there were no associated repairs over the 5-year period.

         We found that, overall, Medicare would have saved 96 percent of the maintenance payments
         made to suppliers for the services in our review had Medicare paid for actual equipment repair
         rather than routine maintenance. If this 96 percent is applied to the total maintenance payments
         for the 31 codes in 2000, Medicare would have saved $98 million of the $102 million paid for
         maintenance that year.

Only 9 percent of capped rental equipment actually received any maintenance and
servicing from June to December 2000

         In addition to a 5-year review comparing maintenance payments to repair payments, we also
         reviewed a sample of equipment to determine if any maintenance and servicing was actually
         provided. Out of 964 maintenance services with a June 2000 service date, we requested
         documentation for a sample of 260 services. Overall, just 9 percent of the capped rental
         equipment with a June 2000 service date actually received any servicing between June and
         December 2000. We estimate that of the $7.3 million Medicare paid for maintenance services
         from June 2000, $6.5 million was paid for equipment that received no actual servicing.

CONCLUSION

         The findings of this report illustrate that Medicare’s current policy of paying for maintenance and
         servicing of capped rental equipment is not cost-effective. We found that Medicare pays
         substantially more in maintenance payments for rented items than it does for actual repairs on
         purchased equipment. In addition, we found that Medicare beneficiaries are receiving little or no
         routine maintenance on their rented equipment.

RECOMMENDATION

         We recommend that the Centers for Medicare & Medicaid Services eliminate the
         semi-annual maintenance payment currently allowed for capped rental equipment and
         pay only for repairs when needed. We believe this change would result in nearly $100 million
         dollars being saved each year by Medicare and its beneficiaries. As a broader issue relating to
         capped rental equipment, CMS may also want to consider if eliminating the 15-month rental
         option would be a viable solution. By requiring any continuous rentals to be converted to a
         purchase after the 13th month of rental, the need for the semi-annual maintenance payment
         would automatically be eliminated.

Agency Comments

         The CMS agreed with our recommendation and stated that they will consider a legislative
         initiative to eliminate the 15-month rental option. This initiative would result in significant savings
         to the Medicare program by eliminating the semi-annual maintenance and servicing fee and by
         eliminating monthly rental payments for months 14 and 15. Appendix E contains the full text of
         CMS’ comments.

Maintenance Payments for Capped Rental Equipment        ii                                     OEI-03-00-00410
                             TABLE OF CONTENTS

                                                                                                                            PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS

         Comparing Maintenance Payments to Repair Payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


         Maintenance and Servicing Not Provided . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


APPENDICES

         A. Comparison of Repair and Maintenance Payments for 31 Equipment Codes . . . . . . . . . 10


         B. Description of 26 Equipment Codes in Maintenance Review . . . . . . . . . . . . . . . . . . . . . 12


         C. Maintenance and Servicing Performed on 26 Equipment Codes . . . . . . . . . . . . . . . . . . 14


         D. Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


         E. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18





Maintenance Payments for Capped Rental Equipment                 iii                                            OEI-03-00-00410
                                      INTRODUCTION


PURPOSE

         To determine the cost-effectiveness of Medicare maintenance payments for capped rental
         equipment.

BACKGROUND

         Title XVIII of the Social Security Act established coverage requirements for Part B of the
         Medicare Program. Medicare Part B pays for certain pieces of durable medical equipment such
         as hospital beds, nebulizers, and wheelchairs under the capped rental category. Capped rental
         equipment generally costs more than $150 and is not routinely purchased, service intensive, or
         customized. Payments for capped rental equipment are made monthly and cannot exceed 15
         months of rental. After the monthly rental period has ended, Medicare will pay for either the
         continuing maintenance or repairs of these items. In 2000, Medicare paid approximately $111
         million for maintenance and $19 million for repairs of capped rental equipment. Medicare
         beneficiaries were responsible for 20 percent of these payments in the form of coinsurance.

         Once a Medicare beneficiary has been renting the equipment for 10 consecutive months, the
         supplier must give the beneficiary the option of purchasing the equipment. If a beneficiary
         chooses to continue renting the equipment, Medicare will pay for an additional 5 months of
         rental. After that time, the supplier retains ownership of the equipment and Medicare will cover
         maintenance and servicing every 6 months. If the beneficiary chooses to purchase the
         equipment, the rental payments for the equipment end at 13 months instead of 15 months. The
         supplier then transfers the title of the equipment to the beneficiary and Medicare pays only for
         necessary repairs.

Medicare Maintenance Payments for Rented Equipment

         For equipment that beneficiaries have elected to continue to rent, Medicare will pay for routine
         maintenance and servicing after the 15 month rental cap has been reached. If beneficiaries do
         not inform suppliers of their decision, it is assumed that the beneficiary will continue to rent the
         equipment. Suppliers may begin billing for maintenance and servicing 6 months after the rental
         period has ended, and then they may bill once every
         6 months thereafter. The semi-annual maintenance payment covers any maintenance performed
         during the 6-month time period following the service date billed on the claim. Medicare pays for
         this maintenance and servicing regardless of whether or not the equipment is actually serviced by
         suppliers.




Maintenance Payments for Capped Rental Equipment      1                                     OEI-03-00-00410
Medicare Repair Payments for Purchased Equipment

         For equipment that beneficiaries have elected to purchase at the end of the rental period,
         suppliers may bill Medicare for repairs when they are performed. Repairs include reasonable
         and necessary charges for parts and labor which are not covered under any manufacturer or
         supplier warranty. Routine periodic servicing of equipment is not covered. However, more
         extensive maintenance which is recommended by the manufacturer is covered as repairs. These
         repairs, which should be performed by authorized technicians, can include breaking down sealed
         components and performing tests which require specialized testing equipment.

METHODOLOGY

         We primarily focused on two sources of information for this report: (1) a 5-year review (1996
         to 2000) of maintenance and repair payments for capped rental equipment that beneficiaries
         decided to rent or purchase in 1996 and (2) a survey of suppliers who received payment from
         Medicare for the maintenance and servicing of capped rental equipment in June 2000.

5-Year Data Review

         Data Collection and Analysis. We began with a 1 percent file of durable medical equipment
         services from CMS’ 1996 National Claims History file. We extracted all capped rental services
         with a BR or BP modifier indicating that the beneficiary made a decision either to continue to
         rent the equipment (BR modifier) or to purchase the equipment (BP modifier). Then using
         CMS’ National Claims History File data from 1996 through 2000, we extracted all of the
         services for those beneficiaries who decided to rent or purchase equipment in 1996. It is
         possible that during the 5 years we tracked, beneficiaries may have stopped using their rented or
         purchased equipment due to changes in medical condition or death. We did not review
         individual beneficiary histories to determine if the need for the equipment continued over the 5-
         year period reviewed.

         There was a total of 60 different equipment codes representing 1,251 pieces of equipment that
         beneficiaries decided to purchase and 2,359 pieces of equipment that beneficiaries decided to
         continue renting in 1996. Of these 60 codes, only 31 had both rented and purchased
         equipment. These 31 codes had a total of 1,244 purchased items and 2,309 rented items. We
         used these 31 codes for our review. Two of these codes were terminated in 1999 and replaced
         by other codes. In these instances, we included the maintenance and repair payments for both
         the original and replacement codes in our totals.

         For the beneficiaries who decided to rent a particular piece of equipment in 1996, we extracted
         all of their maintenance services for that equipment code (indicated by an MS modifier) from the
         1996 to 2000 data. We determined the number of maintenance services received in each year
         and the dollar amount associated with the maintenance services.




Maintenance Payments for Capped Rental Equipment     2                                   OEI-03-00-00410
         For the beneficiaries who decided to purchase a piece of equipment in 1996, we extracted all of
         their repair and labor charges associated with that equipment from 1996 to 2000. To do this,
         we selected all the beneficiaries’ services with an RP modifier for repairs as well as services
         billed with codes E1340 and E1350 to account for labor charges. Since a beneficiary may have
         decided to purchase more than one piece of equipment over the years, we reviewed the list of
         repair services to determine if it was an appropriate code for the piece of equipment the
         beneficiary decided to purchase in 1996. We then compiled a list of appropriate repair codes
         for each piece of equipment purchased in 1996. We included all E1340 and E1350 charges, as
         well as all E1399 services (for miscellaneous durable medical equipment) billed with an RP
         modifier in this list. We determined the number of repair services received in each year and the
         dollar amount associated with those repair services.

         For each code in our review, we determined the average of maintenance payments for rented
         equipment and the average of repair payments for purchased equipment. We did this by
         aggregating all the maintenance and repair payments over 5 years and dividing by the total
         number of equipment rented or purchased in 1996 respectively. Throughout this report, we
         refer to these averages as “average maintenance payment” and “average repair payment.” To
         calculate the 5-year dollar savings if the program paid only for equipment repair and not
         maintenance, we began by subtracting the average repair payment from the average maintenance
         payment for each code. We then multiplied this number by the total number of equipment rented
         in 1996 for each of the codes. To calculate the Medicare savings for the services in our review,
         we aggregated the dollar savings for each individual equipment code. To determine the savings
         percentages for each equipment code and overall, we took the amount that Medicare would
         save if the program paid for equipment repair rather than maintenance, and divided it by the total
         maintenance payments from 1996 to 2000. To calculate total Medicare savings, we applied the
         overall savings percentage to the total projected amount Medicare paid for maintenance
         between 1996 and 2000 on these 31 codes. The maintenance and repair payments for the 31
         equipment codes are provided in Appendix A. Point estimates and confidence intervals are
         provided in Appendix D.

Survey Data

         Sample Design. We began with a 1 percent file of durable medical equipment services from
         CMS’ 2000 National Claims History file which included all claims processed through December
         2000. From this file, we extracted all paid services with an MS modifier indicating maintenance
         and servicing was billed. We verified that all the equipment codes billed with an MS modifier
         were for capped rental equipment.

         We selected our sample maintenance services from 1 month, June 2000. A single maintenance
         service covers a 6-month time frame during which maintenance can be performed. Our analysis
         indicated that June 2000 was similar to the other months of 2000 in terms of the number of
         maintenance services paid and allowed charges. We removed services for deceased
         beneficiaries, and then selected a stratified random sample of maintenance services with a
         service date from June 2000. We stratified our sample to



Maintenance Payments for Capped Rental Equipment     3                                    OEI-03-00-00410
         ensure that we would have a variety of equipment types to review. Our sample contained four
         strata based on equipment type. Stratum one included wheelchairs and accessories, stratum two
         included nebulizers, stratum three included hospital beds and accessories, and stratum four
         included all other equipment such as continuous positive airway pressure (CPAP) devices,
         patient lifts, and commodes. After eliminating services for suppliers under review by our Office
         of Investigations, our sample consisted of 260 maintenance services. These services represent
         26 different equipment codes. A description of our sample is presented in Table 1 below. A list
         describing the 26 equipment codes in our sample is provided in Appendix B.

                     Table 1. Sample of Maintenance Services from June 2000

                                                                   Sampling
                       Strata             Equipment Type
                                                                    Frame       Sample

                          1      Wheelchairs and Accessories         348          65

                          2      Nebulizers                          241          65

                          3      Hospital Beds and Accessories       227          65

                          4      All Other Equipment                 148          65

                      TOTAL                                          964          260



         Data Collection and Analysis. We mailed surveys to the suppliers who billed for the June
         2000 maintenance services in our sample. We collected this data from suppliers from April to
         July 2001. The survey asked suppliers whether or not they provided any maintenance,
         servicing, or repairs on the equipment between June and December 2000. We asked suppliers
         to indicate the dates they performed the service, to describe the type of maintenance performed,
         and to include documentation of the service. If suppliers indicated that on a visit they checked,
         cleaned, repaired, tested, replaced a part, or exchanged the equipment, we counted this as
         maintenance and servicing. If the supplier indicated that they called the beneficiary to see if
         service was needed or if they mailed supplies to beneficiaries, we did not count this as
         maintenance and servicing.

         We sent a second request to providers who did not respond to our initial survey request. In a
         third and final request, we informed suppliers that for the purposes of our study, we would
         conclude that no maintenance or servicing was performed from June to December 2000 if we
         did not receive a response. We received responses for 250 of the 260 services in our sample.
         We did not receive responses for 10 of our sample services. For eight of these services, it
         appeared that suppliers received all three of our requests; therefore, we concluded that there
         was no documentation to support these maintenance services. We were not able to locate
         suppliers for two of these services; therefore, we excluded these services from our analysis. Our
         sample for analysis consisted of 258 services. Estimates and confidence intervals for all statistics
         regarding our sample data are projected to the universe of maintenance services for June 2000.
         The estimates and confidence intervals are provided in Appendix D.



Maintenance Payments for Capped Rental Equipment               4                           OEI-03-00-00410
                                                   ____________


         This inspection was conducted in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Maintenance Payments for Capped Rental Equipment        5                            OEI-03-00-00410
                                                   FINDINGS

         Our detailed 5-year analysis which involved tracking more than 3,500 pieces of capped rental
         equipment for beneficiaries who decided to rent or purchase the equipment in 1996
         demonstrated that Medicare paid substantially more for maintenance on rented equipment than
         repairs on purchased equipment. Furthermore, our additional analysis of supplier documentation
         for more than 250 maintenance services from June 2000 found only 9 percent of the capped
         rental equipment actually received any maintenance and servicing. The combination of these two
         findings provides strong evidence that Medicare’s current policy of paying for maintenance and
         servicing of capped rental equipment is not cost-effective.

Medicare paid substantially more for maintenance than repairs
over a 5-year period for the 31 equipment codes in our review

         We tracked, over a 5-year period (1996 to 2000), the maintenance and repair payments for
         3,553 pieces of equipment representing 31 capped rental equipment codes that beneficiaries
         decided to rent or purchase in 1996. We found that, on average, Medicare paid substantially
         more for maintenance on rented equipment than repairs on purchased equipment over the 5
         years. Between 1996 and 2000, there was only one equipment code where the average repair
         payment was more than the average maintenance payment. For half of the 31 codes, there were
         no associated repairs over the 5-year period. There were 21 equipment codes where Medicare
         would have saved over 90 percent of maintenance payments had the program paid for repairs
         rather than maintenance on the equipment. The seven equipment codes with the highest dollar
         savings in our review are presented in Table 2 on the next page. Appendix A contains a
         comparison of the repair and maintenance payments for all 31 equipment codes.

         We found that, overall, Medicare would have saved 96 percent of the maintenance payments
         made for the services in our review had Medicare paid for actual equipment repair rather than
         routine maintenance. If we apply this 96 percent to the estimated $49 million paid for
         maintenance over the 5 years, Medicare would have saved $47 million on this equipment. This
         savings is based only on the maintenance payments for beneficiaries who decided to rent rather
         than purchase the 31 types of equipment in 1996. If this 96 percent is applied to the total
         maintenance payments for the 31 equipment codes in 2000, Medicare would have saved $98
         million of the $102 million paid for maintenance that year.




Maintenance Payments for Capped Rental Equipment      6                                 OEI-03-00-00410
         Table 2. Average Repair and Maintenance Payments for Selected Equipment (1996 to 2000)

                                                                                                                  Dollar
                                                                                 Average         Average
                                                                                                                Savings if
                                                                                  Repair      Maintenance
                                                                                                                 Medicare
             Equipment                         Description                     Payment for    Payment for
                                                                                                                 Paid for
               Code                           of Equipment                    all Purchased    all Rented
                                                                                                                 Repairs
                                                                               Items over     Items over 5-
                                                                                                                Instead of
                                                                              5-Year Period    Year Period
                                                                                                               Maintenance

               E0260          Hospital bed, semi-electric                          $10.36       $413.09        $163,105.65

               K0001          Standard wheelchair                                  $5.07        $111.41         $52,850.98

               E0277          Powered pressure reducing air mattress               $39.42       $712.91         $44,450.34

               K0003          Lightweight wheelchair                               $12.96       $221.59         $29,834.09

               K0004          High strength, lightweight wheelchair                $0.51        $330.57         $29,045.28


               E0255          Hospital bed, variable height                        $0.00        $330.08         $28,056.80


               E0570          Nebulizer, with compressor                           $0.68         $61.76         $27,302.76
         Source: OIG review of CMS’ National Claims History File Data, 1996-2000



Only 9 percent of capped rental equipment actually received
any maintenance and servicing from June to December 2000

         In addition to a 5-year review comparing maintenance payments to repair payments, we also
         reviewed a sample of equipment to determine if any maintenance and servicing was actually
         provided. Out of 964 maintenance services with a June 2000 service date, we requested
         documentation for a sample of 260 services. Overall, just 9 percent of the capped rental
         equipment with a service date in June 2000 actually received any servicing between June and
         December 2000. Current Medicare regulations allow suppliers to be paid for maintenance and
         servicing even if they do not perform any service. We estimate that of the $7.3 million Medicare
         paid for maintenance services from June 2000, $6.5 million was paid for equipment that received
         no actual servicing.

         Of the 26 equipment codes in our sample, less than one-third received any servicing from June
         to December 2000. In terms of equipment type, 16 percent of nebulizers, 9 percent of hospital
         beds, 2 percent of wheelchairs, and 17 percent of other equipment such as CPAP devices and
         suction pumps received maintenance during this time frame.

         For the 91 percent of equipment that did not receive any maintenance, some suppliers indicated
         why they had not performed any servicing. Twenty-eight suppliers indicated that although they
         did not perform maintenance from June to December 2000, they had performed maintenance on
         the equipment sometime during the last 3 years. However, most made only one visit during this
         time. Fifteen suppliers indicated that no maintenance was performed because they wait for the
         beneficiary to call them for service. Ten suppliers indicated they did not service the equipment
         because they phoned the beneficiary and were told that the equipment was working properly.

Maintenance Payments for Capped Rental Equipment                       7                                      OEI-03-00-00410
         Seven suppliers indicated that they provided filters for the equipment but that the beneficiaries
         were able to replace the filters themselves; therefore, a maintenance visit was not necessary.

         Of the 9 percent of equipment that received maintenance and servicing from June to December
         2000, most (24 of 28 items) received just one maintenance visit. Only four pieces of equipment
         received more than one maintenance visit in the 6-month time period. For a majority of
         equipment, the one maintenance visit included having a part replaced. Of the equipment that had
         a part replaced, five were hospital beds that had parts such as a crank, head board, and hand
         control cable replaced. Three nebulizers had accessory parts such as filters replaced, and three
         CPAP devices had accessory parts such as filters and tubing replaced. Even though suppliers
         are allowed to bill Medicare separately for nebulizer and CPAP filters and other accessories, we
         considered it maintenance and servicing if the supplier, not the beneficiary, replaced these parts.

         Some suppliers performed other types of maintenance and servicing including checking, cleaning,
         testing, repairing, or exchanging the equipment. While suppliers performed multiple types of
         service on some equipment, three-quarters of the equipment received only one type of
         maintenance on a single visit. See Appendix C for the type of maintenance and servicing
         performed on all of the equipment reviewed.




Maintenance Payments for Capped Rental Equipment      8                                     OEI-03-00-00410
                                         CONCLUSION


         The findings of this report illustrate that Medicare’s current policy of paying for maintenance and
         servicing of capped rental equipment is not cost-effective. We found that Medicare pays
         substantially more in maintenance payments for rented items than it does for actual repairs on
         purchased equipment. In addition, we found that Medicare beneficiaries are receiving little or no
         routine maintenance on their rented equipment.



                               RECOMMENDATION
         We recommend that the Centers for Medicare & Medicaid Services eliminate the
         semi-annual maintenance payment currently allowed for capped rental equipment and
         pay only for repairs when needed. We believe this change would result in nearly $100 million
         dollars being saved each year by Medicare and its beneficiaries. As a broader issue relating to
         capped rental equipment, CMS may also want to consider if eliminating the 15-month rental
         option would be a viable solution. By requiring any continuous rentals to be converted to a
         purchase after the 13th month of rental, the need for the semi-annual maintenance payment
         would automatically be eliminated.

Agency Comments

         The CMS agreed with our recommendation and stated that they will consider a legislative
         initiative to eliminate the 15-month rental option. This initiative would result in significant savings
         to the Medicare program by eliminating the semi-annual maintenance and servicing fee and by
         eliminating monthly rental payments for months 14 and 15. Appendix E contains the full text of
         CMS’ comments.




Maintenance Payments for Capped Rental Equipment        9                                      OEI-03-00-00410
                                                                                                  APPENDIX A




                Comparison of Repair and Maintenance Payments 

                    for 31 Equipment Codes (1996 to 2000) 



                                                                                     Difference      Dollar            Percent
                                                       Average        Average
                                                                                      between      Savings if         Savings if
                                                       Repair       Maintenance
                                                                                      Average      Medicare           Medicare
    Equipment                Equipment              Payment for     Payment for
                                                                                    Maintenance     Paid for           Paid for
      Code 1                 Description           all Purchased     all Rented
                                                                                    and Average     Repairs            Repairs
                                                    Items over       Items over
                                                                                       Repair      Instead of         Instead of
                                                   5-Year Period    5-Year Period
                                                                                      Payment     Maintenance        Maintenance


     E0146       Folding walker                       $0.00              $0.00         $0.00         $0.00               0%


     E0165       Commode chair                        $6.58              $21.78       $15.20        $334.40             70%


                 Pressure pad, alternating
     E0180                                            $25.28             $37.70       $12.42        $422.28             33%
                 w/pump

                 Pressure pad, alternating
     E0181                                            $0.00              $37.00       $37.00       $1,073.00            100%
                 w/pump, heavy duty


     E0235       Paraffin bath unit, portable         $0.00              $0.00         $0.00         $0.00               0%


     E0250       Hospital bed, fixed height           $0.00             $118.04       $118.04      $1,180.40            100%


     E0255       Hospital bed, variable               $0.00             $330.08       $330.08     $28,056.80            100%


     E0260       Hospital bed, semi-electric          $10.36            $413.09       $402.73     $163,105.65           97%


     E0265       Hospital bed, total electric         $0.00             $465.41       $465.41      $2,792.46            100%


                 Powered pressure reducing
     E0277                                            $39.42            $712.91       $673.49     $44,450.34            94%
                 air mattress

                 Intermittent assist device
     E0452                                            $0.00             $1,287.16    $1,287.16    $16,733.08            100%
                 with CPAP


     E0480       Percussor                            $0.00              $0.00         $0.00         $0.00               0%


     E0570       Nebulizer, with compressor           $0.68              $61.76       $61.08      $27,302.76            99%


     E0600       Suction pump                         $0.00              $60.88       $60.88       $1,826.40            100%


                 Continuous positive airway
     E0601                                            $0.00             $417.10       $417.10     $24,608.90            100%
                 pressure (CPAP) device


     E0630       Patient lift, hydraulic              $18.82            $235.67       $216.85     $10,842.50            92%


                 Neuro-muscular stimulator
     E0745                                            $0.00             $106.41       $106.41       $532.05             100%
                 for shock




Maintenance Payments for Capped Rental Equipment                   10                                          OEI-03-00-00410
                                                                                                  APPENDIX A


                                                                                     Difference     Dollar              Percent
                                                       Average        Average
                                                                                      between      Savings if          Savings if
                                                       Repair       Maintenance
                                                                                      Average      Medicare            Medicare
    Equipment              Equipment                Payment for     Payment for
                                                                                    Maintenance     Paid for            Paid for
      Code 1               Description             all Purchased     all Rented
                                                                                    and Average     Repairs             Repairs
                                                    Items over       Items over
                                                                                       Repair      Instead of          Instead of
                                                   5-Year Period    5-Year Period
                                                                                      Payment     Maintenance         Maintenance


     E0910       Trapeze bar, attached to             $0.00             $44.56        $44.56       $2,450.80             100%


     E0940       Trapeze bar, free standing           $0.00             $37.40        $37.40        $598.40              100%


     E1031       Rollabout chair                      $0.00             $50.25        $50.25        $552.75              100%


     K0001       Standard wheelchair                  $5.07             $111.41       $106.34     $52,850.98             95%


                 Standard hemi
     K0002                                            $31.72            $140.52       $108.80      $1,958.40             77%
                 (low seat) wheelchair


     K0003       Lightweight wheelchair               $12.96            $221.59       $208.63     $29,834.09             94%


                 High strength, lightweight
     K0004                                            $0.51             $330.57       $330.06     $29,045.28             100%
                 wheelchair


     K0006       Heavy-duty wheelchair                $13.29            $333.49       $320.20      $7,044.40             96%


     K0007       Extra heavy-duty                     $0.00             $457.44       $457.44      $2,744.64             100%


                 Standard weight frame
     K0010                                           $253.10            $687.56       $434.46      $2,606.76             63%
                 power wheelchair

                 Standard weight powered
     K0011                                           $279.22            $836.84       $557.62      $7,249.06             67%
                 wheelchair w/control

                 Lightweight portable power
     K0012                                           $199.15             $0.00       ($199.15)     ($199.15)               )
                 wheelchair

                 CPAP device, with
     K0193                                            $0.00              $0.00         $0.00         $0.00                0%
                 humidifier

                 Elevating wheelchair
     K0195                                            $0.27             $39.03        $38.76       $6,356.64             99%
                 leg rests


     TOTAL                                                                                        $466,354.07            96%

    PROJECTED
                                                                                                  $46,635,407
      TOTAL


    Source: OIG review of CMS’ National Claims History File Data, 1996-2000


         1
           In October 1999, equipment code E0452 was replaced by code K0532 and equipment code K0193 was
         replaced by code E0601. We included the maintenance and repair payments for both the original and
         replacement codes in our review.




Maintenance Payments for Capped Rental Equipment                   11                                           OEI-03-00-00410
                                                                                                      APPENDIX B



       Description of 26 Equipment Codes in Maintenance Review

                                    STRATA 1 - WHEELCHAIRS AND ACCESSORIES

       Codes          Description

       E1090	         High-strength lightweight wheelchair; detachable arms, desk or full-length, swing-away,
                      detachable footrests

       E1150          Wheelchair; detachable arms, desk or full-length, swing-away, detachable, elevating legrests

       K0001          Standard wheelchair

       K0002          Standard hemi (low seat) wheelchair

       K0003          Lightweight wheelchair

       K0004          High strength, lightweight wheelchair

       K0006          Heavy-duty wheelchair

       K0007          Extra heavy-duty wheelchair

       K0012          Lightweight portable motorized/power wheelchair

       K0101          One-arm drive attachment, each

       K0195          Elevating legrest, pair (for use with capped rental wheelchair base)



                                                   STRATA 2 - NEBULIZERS

       Codes          Description

       E0570          Nebulizer, with compressor



                                  STRATA 3 - HOSPITAL BEDS AND ACCESSORIES

       Codes          Description

       E0250          Hospital bed, fixed height, with any type side rails, with mattress

       E0255          Hospital bed, variable height, hi-lo, with any type side rails, with mattress

       E0260          Hospital bed, semi-electric (head and foot adjustment), with any type side rails, with mattress

       E0265	         Hospital bed, total electric (head, foot, and height adjustments), with any type side rails, with
                      mattress

       E0910          Trapeze bar, also know as Patient Helper, attached to bed, with grab bar




Maintenance Payments for Capped Rental Equipment                12                                             OEI-03-00-00410
                                                                                                   APPENDIX B


                                            STRATA 4 - ALL OTHER EQUIPMENT

       Codes          Description

       E0146          Folding walker, wheeled, with seat

       E0165          Commode chair, stationary, with detachable arms

       E0180          Pressure pad, alternating with pump

       E0181          Pressure pad, alternating with pump, heavy duty

       E0277          Powered pressure reducing air mattress

       E0600          Suction pump, home model, portable

       E0601          Continuous positive airway pressure (CPAP) device

       E0630          Patient lift, hydraulic, with seat or sling

       K0532	         Respiratory assist device, bi-level pressure capability, without backup rate feature, used with
                      noninvasive interface, e.g., nasal or facial mask




Source: 2000 HCPCS published by Medicode Inc.




Maintenance Payments for Capped Rental Equipment                    13                                        OEI-03-00-00410
                                                                                                                APPENDIX C


                                   Maintenance and Servicing Performed 

                                    On 26 Equipment Codes Reviewed



The table below shows the equipment that received maintenance and servicing from June through
December 2000, as well as the different types of maintenance and servicing performed for each
equipment code. A check indicates that at least one piece of equipment for that code received a
particular type of maintenance during the period of our review.


                                                                                                                Type of Maintenance and Servicing

                                                 Number that     Number that          Number that




                                                                                                                                                   Part replaced
                                      Number




                                                                                                                                                                   Exchanged
  HCPCS           Equipment                       Received       Received One       Received More




                                                                                                                                        Repaired
                                                                                                      Checked


                                                                                                                  Cleaned
                                       in our




                                                                                                                            Tested
   Code           Description                    Maintenance      Visit June-        than One Visit
                                      Sample
                                                June-Dec 2000      Dec 2000         June-Dec 2000




                                                      Wheelchairs and Accessories


           High strength,
           lightweight
   E1090                                1            0                0                   0              -           -         -            -            -             -
           wheelchair
           detachable arms


           Wheelchair, standard,
   E1150                                1            0                0                   0              -           -         -            -            -             -
           with leg rests


  K0001    Standard wheelchair          25           0                0                   0              -           -         -            -            -             -


           Standard hemi (low
  K0002                                 2            0                0                   0              -           -         -            -            -             -
           seat) wheelchair


           Lightweight
  K0003                                 8            0                0                   0              -           -         -            -            -             -
           wheelchair


           High strength
  K0004    lightweight                  7            0                0                   0              -           -         -            -            -             -
           wheelchair


           Heavy-duty
  K0006                                 4            0                0                   0              -           -         -            -            -             -
           wheelchair


           Extra heavy-duty
  K0007                                 1            0                0                   0              -           -         -            -            -             -
           wheelchair


           Lightweight portable
  K0012                                 1            0                0                   0              -           -         -            -            -             -
           power wheelchair


           One-arm drive
  K0101                                 1             0               0                   0              -           -         -            -            -             -
           attachment


           Elevating wheelchair
  K0195                                 14           1                1                   0              -           -         -            -       U                  -
           leg rests




Maintenance Payments for Capped Rental Equipment                 14                                                                  OEI-03-00-00410
                                                                                                            APPENDIX C


                                                                                                            Type of Maintenance and Servicing

                                                Number that      Number that      Number that




                                                                                                                                               Part replaced
                                     Number




                                                                                                                                                               Exchanged
  HCPCS            Equipment                     Received        Received One   Received More




                                                                                                                                    Repaired
                                                                                                  Checked


                                                                                                              Cleaned
                                      in our




                                                                                                                        Tested
   Code            Description                  Maintenance       Visit June-    than One Visit
                                     Sample
                                               June-Dec 2000       Dec 2000     June-Dec 2000




                                                               Nebulizers


           Nebulizer, with
   E0570                               64           10                 7              3           U           U         U           U           U              U
           compressor


                                                    Hospital Beds and Accessories


           Hospital bed, fixed
   E0250                               4            0                  0              0              -           -         -            -            -             -
           height


           Hospital bed, variable
   E0255                               7            0                  0              0              -           -         -            -            -             -
           height

           Hospital bed, semi-
   E0260                               46           6                  5              1              -           -         -        U           U              U
           electric


           Hospital bed, total
   E0265                               2            0                  0              0              -           -         -            -            -             -
           electric


   E0910   Trapeze bar                 6            0                  0              0              -           -         -            -            -             -



                                                           Other Equipment


   E0146   Folding walker              1            0                  0              0              -           -         -            -            -             -



   E0165   Commode chair               6            0                  0              0              -           -         -            -            -             -


           Pressure pad,
   E0180                               5            1                  1              0              -           -         -            -       U                  -
           alternating with pump


           Pressure pad,
   E0181   alternating with pump,      1            0                  0              0              -           -         -            -            -             -
           heavy duty


           Powered pressured
   E0277                               2            1                  1              0              -           -         -            -       U                  -
           reducing air mattress


   E0600   Suction pump                7            1                  1              0              -           -         -            -            -         U

           Continuous positive
   E0601   airway pressure             27           7                  7              0           U              -         -            -       U                  -
           (CPAP) device


   E0630   Patient lift, hydraulic     11           0                  0              0              -           -         -            -            -             -


           Respiratory assist
  K0532                                4            1                  1              0           U              -      U               -            -             -
           device


             Totals                   258           28                 24             4

Source: OIG Survey Data, 2001




Maintenance Payments for Capped Rental Equipment                  15                                                             OEI-03-00-00410
                                                                              APPENDIX D


                             Estimates and Confidence Intervals


         The table below contains statistical estimates presented in Findings section of this report. Point
         estimates and corresponding 95 percent confidence intervals were weighted based on the
         sample design as described in the Methodology section.



                                                                             95 Percent Confidence
                       Statistic                   Point Estimate
                                                                                    Interval

 Percent of Equipment that Received Maintenance
                                                          9.17%                 5.88% - 12.46%
 and Servicing from June through December 2000


 Percent of Nebulizers that Received Maintenance
                                                          15.63%                6.67% - 24.58%
 and Servicing from June through December 2000

 Percent of Hospital Beds that Received
 Maintenance and Servicing from June through              9.23%                 2.15% - 16.31%
 December 2000

 Percent of Wheelchairs that Received
 Maintenance and Servicing from June through              1.54%                 0.00% - 4.56%
 December 2000

 Percent of Other Equipment that Received
 Maintenance and Servicing from June through              17.19%                7.89% - 26.48%
 December 2000

 Total June 2000 Medicare Payments for
 Maintenance and Servicing where No                    $6,508,828           $5,888,202 - $7,129,453
 Maintenance was Performed

 Total June 2000 Medicare Payments for
                                                       $7,306,998           $6,672,518 - $7,941,479
 Maintenance and Servicing

 Total 1996-2000 Medicare Payments for
 Maintenance and Servicing of Equipment that          $48,607,283          $47,227,524 - $49,987,042
 Beneficiaries Decided to Rent in 1996

 Total 1996-2000 Medicare Payments for Repairs
 of Equipment that Beneficiaries Decided to            $5,192,415           $4,532,632 - $5,852,198
 Purchase in 1996




Maintenance Payments for Capped Rental Equipment     16                                     OEI-03-00-00410
                                                            APPENDIX E


                                  Comments from the

                       Centers for Medicare & Medicaid Services





Maintenance Payments for Capped Rental Equipment   17              OEI-03-00-00410
                           ACKNOWLEDGMENTS

This report was prepared under the direction of Robert A. Vito, Regional Inspector General for
Evaluation and Inspections in Philadelphia, PA and Linda M. Ragone, Deputy Regional Inspector
General. Other principal Office of Evaluation and Inspections staff who contributed include:

Tara J. Bernabe, Project Leader                         Stephanie Lattin, Program Specialist
Cynthia R. Hansford, Program Assistant                  Brian Ritchie, Technical Support Staff
Cortney Hayflinger, Program Analyst




Maintenance Payments for Capped Rental Equipment   18                                 OEI-03-00-00410
